Nos. 19-267 & 19-348

 

 

IN THE

Supreme Court of the United States

Our LaDy OF GUADALUPE SCHOOL,

Petitioner,
v.

AGNES MorRISSEY-BERRU,
Respondent.

St. JAMES SCHOOL,

Petitioner,
v.

DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE
ESTATE OF KRISTEN BIEL,

Respondent.

On Writs of Certiorari to the United States Court of
Appeals for the Ninth Circuit

BRIEF OF AMICUS CURIAE
NATIONAL CATHOLIC EDUCATIONAL
ASSOCIATION IN SUPPORT OF PETITIONERS
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,637 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 10, 2020.

Colin Casey ae

Wilson-Epes Printing Co., Inc.
